                   UNITED STATES DEPARTMENT OF EDUCATION 

                        OFFICE OF INSPECTOR GENERAL 


                   400 Maryland Avenue S.W., Washington, DC 20202-1510

                                      February 27, 2006

                                                                          Control Number
                                                                          ED-OIG/X07F0002
Raymond Simon
Deputy Secretary
Office of the Deputy Secretary
U.S. Department of Education
400 Maryland Ave, SW
Washington, DC 20202

David Dunn
Acting Under Secretary
Office of the Under Secretary
U.S. Department of Education
400 Maryland Ave, SW
Washington, DC 20202

Dear Deputy Secretary Simon and Acting Under Secretary Dunn:

This Final Management Information Report, titled Overlapping Services in the Department of
Education’s Office of Postsecondary Education Programs, is to provide information that you
may find beneficial. The objectives of our review were to determine if Office of Postsecondary
Education (OPE) grant programs 1) have duplicative program objectives aimed at serving like
target populations and areas; and 2) if grant programs administered by other U.S. Department of
Education (Department) offices contain program objectives that overlap with OPE grant
programs. Our review focused on the FY 2003-2004 grant programs.

An electronic copy has been provided to your Audit Liaison Officer. We received your response
dated February 10, 2006, concurring with the finding in our draft report issued on December 29,
2005. The response is included in its entirety as Attachment C. We made minor edits to the
report to address technical corrections and clarifications you provided separately.



                                     BACKGROUND



The Department establishes policy for, administers, and coordinates most Federal assistance to
education. The Department’s mission is to serve America’s students to ensure that all have equal
access to education and to promote excellence in our nation’s schools. Some purposes as stated
in the Department’s mission include:
    • 	 Strengthen the Federal commitment to assuring access to equal educational opportunity
        for every individual.
ED-OIG/X07F0002 	                                                                     Page 2 of 21


      • 	 Promote improvements in the quality and usefulness of education through Federally
          supported research, evaluation, and sharing of information.
      • 	 Improve the coordination of Federal education programs.
      • 	 Improve the management of Federal education activities.
      • 	 Increase the accountability of Federal education programs to the President, the Congress,
          and the public.

OPE administers multiple programs that award thousands of discretionary and formula grants
each year. These programs are intended to address the national need to increase access to quality
postsecondary education, strengthen the capacity of colleges and universities, and provide
teacher and student development resources. Many programs are generally designed to:

      • 	 Provide financial assistance to eligible students enrolled in postsecondary educational
          institutions,
      • 	 Improve postsecondary educational facilities and programs through the provision of
          financial support to eligible institutions,
      • 	 Recruit and prepare disadvantaged students for the successful completion of 

          postsecondary educational programs, and/or 

      • 	 Promote the domestic study of foreign languages and international affairs and support
          international education research and exchange activities.

The Department’s Office of Vocational and Adult Education (OVAE) and Office of Elementary
and Secondary Education (OESE) administer, coordinate, and recommend policy for improving
quality and excellence of programs that are also designed to prepare students for postsecondary
education and careers through strong high school programs and career and technical education.




                                        REVIEW RESULTS



OPE administers at least 411 discretionary and formula grants with duplicative program
objectives serving like areas and populations. There also are 14 OVAE and 13 OESE grant
programs which overlap, completely or in part, with OPE grant programs. All programs
contained some unique characteristics; however, there were a large number with overlapping
objectives that offered similar services to the same or overlapping populations. Some programs
may not have overlapping primary objectives; but a secondary objective overlaps an OPE
program. We believe that this overlap is counter to the Department’s mission to improve
coordination and management of Federal education programs.

The Department has recommended in past budget requests a reduction in funding for or the
elimination of some programs because they duplicate others or can be accomplished within other
programs. Congress has sometimes followed those recommendations and other times continued
to fund programs recommended for elimination or reduction. The multiple programs, all with
their own legislation, regulations, program policies, applications, award competitions,

1
    We only reviewed programs administered through OPE, OESE, and OVAE.
ED-OIG/X07F0002                                                                      Page 3 of 21


monitoring, and reporting requirements are burdensome for the Department to administer. We
noted little coordination between OPE, OESE, and OVAE grant programs. We suggest that the
Department improve its coordination between programs within OPE and throughout the
Department. We also suggest that grant programs be realigned to administer like programs by
the same office within the Department, and to continue to work with Congress to consolidate or
eliminate programs that have the same program objectives.

Programs with Overlapping Objectives Offering Similar Services to Overlapping
Populations

Our evaluation of OPE’s discretionary and formula grants identified 42 grant programs that
could be grouped by related program purposes into eight different categories:

   1.   Teacher Quality and Professional Development;
   2.   Student Support for Postsecondary and Adult Education;
   3.   Postsecondary Student Aid;
   4.   Postsecondary Institutions;
   5.   Preparation of Students for Postsecondary Education;
   6.   International;
   7.   Curriculum; and
   8.   Training.

Because some individual programs have multiple goals and objectives, these programs may be
included in more than one category. Each program listed in one or more of the eight categories
have a similar purpose that provides, in whole or in part, similar services to like target groups. A
table of the grant programs in each category is included as Attachment A of the report.

Analysis of Overlapping Programs
We have chosen to demonstrate the extent of overlapping by providing additional detail for three
of the above categories in this report:

   •    Teacher Quality and Professional Development,
   •    Student Support for Postsecondary and Adult Education, and
   •    Preparation of Students for Postsecondary Education.

Teacher Quality and Professional Development

We identified seven OPE programs that provide funding to improve and strengthen teacher
quality and professional development, along with increasing academic achievement. We also
identified two OESE programs that either have a similar purpose or one component of the
program is similar. The nine grant programs are listed below.
ED-OIG/X07F0002 	                                                                              Page 4 of 21


            Table 1: Teacher Quality and Professional Development
                                                             2004
Program Name1                          Office PO2        Funding                                 Awards
Demonstration Projects to Ensure Students with
Disabilities Receive a Quality Higher Education          OPE      TSD        $6,912,971                   27
Preparing Tomorrow’s Teachers to Use Technology3         OPE      TSD                $0                   25
Teacher Quality Enhancement Grants (States,                                                       19 States
Partnerships, Recruitment)                               OPE      TSD      $88,887,451       38 Partnership
Fulbright-Hays Faculty Research Abroad Fellowship                                            26 Fellowship
Program                                                  OPE        IE       $1,385,649      23 institutions

Fulbright-Hays Seminars Abroad-Bilateral Projects        OPE        IE      $2,200,000                  10
Alaska Native and Native Hawaiian Serving Institutions   OPE     IDUE      $10,935,100                  16
                                                                                          53 Strengthening
                                                                                               26 Planning
                                                                                          207 Continuation
Strengthening Institutions                               OPE    IDUE       $80,986,345
                                                               AITQ                               104 SEA
Improving Teacher Quality State Grants                  OESE              $2,930,126,132         104 SAHE
Enhancing Education through Technology Program          OESE SST            $691,840,913                 52
                                                        Totals           $ 3,813,274,561                730
    1.   Data was obtained from the Department’s ed.gov website; the Guide to U.S. Department of Education
         Programs dated 2004; or program officials in OPE, OESE, and OVAE.
    2.   Program Offices: Teacher and Student Development Programs (TSD), International Education
         Programs (IE), Institutional Development and Undergraduate Education Programs (IDUE), Academic
         Improvement and Teacher Quality Programs (AITQ), School Support and Technology Programs
         (SST).
    3.   Project was forward funded in FY 2003 for 3 years for $62,094,000.

    • 	 The seven OPE programs support increasing academic achievement by improving teacher
        quality with emphasis on technology, teaching students with disabilities, improving
        international studies, and strengthening curriculum development. These programs offer
        similar services such as: teacher recruitment, professional development activities,
        improving technology skills, and improving and strengthening academic programs of
        teacher education.
    • 	 The purpose of the two OESE programs is to improve academic achievement by
        increasing the number of highly qualified teachers and principals by recruitment or
        retention and through the use of technology.

The OPE programs are small in comparison to the two OESE programs in the amount of funding
available. The OESE programs also are broader in scope while the OPE programs are relatively
narrower in scope.

Student Support for Postsecondary and Adult Education

We identified nine OPE programs, that include in the various program purposes, providing
support services to postsecondary and adult students to encourage the successful completion of
their postsecondary and adult education. Programs identified offer very similar services to low-
income students or students from disadvantaged backgrounds. Services include: information on
college admissions and financial assistance, financial aid, and student support services, such as
counseling, tutoring, mentoring, and academic advice. For several programs, these services are
authorized along with numerous other program activities directed toward the improvement of
ED-OIG/X07F0002 	                                                                             Page 5 of 21


institutions and programs. We also identified two OESE programs and three OVAE programs
that either have a similar purpose or one component of the program offers similar services to
participants.

          Table 2: Student Support for Postsecondary and Adult Education
                                                             2004
Program Name1                           Office PO2        Funding                                    Awards
Student Support Services                                  OPE   TRIO      $263,030,892                     935
McNair Postbaccalaureate Achievement                      OPE   TRIO       $42,092,721                     179
Historically Black Colleges and Universities              OPE   IDUE      $222,119,992                      97
Historically Black Graduate Institutes                    OPE   IDUE       $53,099,851                      18
Educational Opportunity Centers                           OPE   TRIO       $48,971,567                     139
American Tribally Controlled Colleges and Universities    OPE   IDUE       $23,286,792                      35
Alaska Native and Native Hawaiian Serving Institutions    OPE   IDUE       $10,935,100                      16
Developing Hispanic Serving Institutions                  OPE   IDUE       $93,993,149                     212
                                                                                              53 Strengthening
                                                                                                   26 Planning
Strengthening Institutions                                OPE IDUE         $80,986,345        207 Continuation
Alaska Native Education Program                          OESE AITQ         $33,302,000                       5
Native Hawaiian Education Program                        OESE AITQ         $32,302,000                      10
Tribally Controlled Postsecondary Vocational and
Technical Institutions Program                           OVAE               $7,185,355                       2
Vocational Education – Grants to Native Americans
and Alaska Natives                                     OVAE                 $14,937,595                      31
Vocational Education – Native Hawaiians                OVAE                  $2,987,519                       1
                                                       Totals              $929,230,878                   1,966
1. Data was obtained from the Department’s ed.gov website; the Guide to U.S. Department of Education Programs
dated 2004; or program officials in OPE, OESE, and OVAE.
2. Program Office (PO): Trio Programs (TRIO), Institutional Development and Undergraduate Education
Programs (IDUE), Academic Improvement and Teacher Quality Programs (AITQ).

The 14 programs listed above have the same overall objective in providing educational services
to program participants to assist in succeeding in postsecondary and adult education.

    • 	 The nine OPE programs provide educational services to disadvantaged students to
        encourage continuing on to a postsecondary institution. Many of the programs offer
        financial assistance to participants and assist students with basic college requirements.
        Many of these programs offering support services are aimed at specific-populations, such
        as African-American, Hispanic, American Tribal, Alaska Native, and Native Hawaiian.
    • 	 The two OESE programs focus on providing educational services that address the 

        educational needs of Alaska Native and Native Hawaiian youths to further their 

        education. 

    • 	 The three OVAE programs geared at serving three specific target groups, Native
        Americans, Alaska Natives, and Native Hawaiians, provide support services to students
        choosing to attend a postsecondary vocational and technical institution.

Preparation of Students for Postsecondary Education

We identified four OPE programs with the purpose of providing educational services to
elementary and secondary school students to prepare and encourage the students to complete
ED-OIG/X07F0002 	                                                                             Page 6 of 21


high school and to go on to receive a postsecondary education. We also identified five OESE,
and one OVAE program that either have a similar purpose or component.

                 Table 3: Preparation of Students for Postsecondary Education
                                                                                  2004 Funding
 Program Name1                                                 Office     PO2                        Awards
 Gaining Early Awareness and Readiness for Undergraduate
 Programs (GEAR UP)                                              OPE      TSD         $298,230,000        317
 Upward Bound                                                    OPE     TRIO         $274,097,258        763
 Upward Bound Math & Science                                     OPE     TRIO          $32,812,036        127
 Talent Search                                                   OPE     TRIO         $144,230,198        469
 Migrant Education – High School Equivalency Program            OESE     OME            $7,884,808         18
 Prevention and Intervention Programs for Children and
 Youths Who Are Neglected, Delinquent, or At Risk               OESE SASA               $48,395,000         52
 Education of Migratory Children                                OESE OME              $393,577,113          52
 Alaska Native Education Program                                OESE AITQ               $33,302,000          5
 Native Hawaiian Education Program                              OESE AITQ               $32,302,000         10
 Tech Prep Demonstration Program                               OVAE        STE           $3,628,563         23
                                                                Totals               $1,268,458,976      1,836
     1.   Data was obtained from the Department’s ed.gov website; the Guide to U.S. Department of Education
          Programs dated 2004; or program officials in OPE, OESE, and OVAE.
     2.   Program Office: Teacher and Student Development Programs (TSD); TRIO Programs (TRIO), Office of
          Migrant Education (OME), Academic Improvement and Teacher Quality Programs (AITQ), Student
          Achievement and School Accountability Programs (SASA), and Secondary and Technical Education
          (STE).

   • 	 All four OPE programs provide educational services that promote academic preparation
       designed to increase the number of low-income students who are prepared to enter and
       succeed in postsecondary education. The programs offer very similar services including
       information on postsecondary education and funding opportunities, encouragement and
       assistance to complete high school, mentoring, and tutoring, and are aimed at
       disadvantaged youth in elementary and secondary schools.
   • 	 The OESE programs all contain segments that encourage graduation (or receipt of a
       GED) and enrollment in postsecondary education for specific sub-populations: migrant
       workers’ children, Alaska Natives, Native Hawaiians, and youth in local and state
       institutions for neglected and delinquent youth.
   • 	 The single OVAE program provides similar services for students with aspirations to
       vocational and technical education programs.

In some cases, the individuals in the sub-populations covered under the OESE and OVAE
programs would also be considered eligible under the OPE programs’ definitions of eligible
students.

Consequences of Multiple-Programs with Overlapping Objectives and
Services

The multiple programs, all with their own legislation, regulations, program policies, applications,
award competitions, monitoring, and reporting requirements are burdensome for the Department
to administer. We noted little coordination between OPE, OESE, and OVAE grant programs.
We suggest that the Department improve its coordination between programs within OPE and
ED-OIG/X07F0002                                                                      Page 7 of 21


throughout the Department. We also suggest that grant programs be realigned to administer like
programs by the same office within the Department, and to work with Congress to consolidate or
eliminate programs that have the same program objectives.

Multiple Programs Are Burdensome to Administer

The multiple programs provide numerous flexibilities in funding services to various entities and
individuals. However, the multiple programs, each with their own legislation, regulations,
program policy, application, award, and reporting requirements are burdensome for the
Department to administer. Since 2002, the Office of Inspector General (OIG) has issued three
internal reports and 24 recipient reports covering programs where we found non-compliance and
poor program administration at the Department and individual grantees.2 Past audit reports have
shown that there is a need for the Department to increase its monitoring, provide more technical
assistance, and clarify program guidance to reduce confusion and misinterpretation of policy
guidelines. These findings were due in part to program staff not following prescribed policy and
procedures, and not having controls in place to effectively administer their program. Program
staff stated that their caseload and diverting staff to assist with other program award cycles were
barriers to monitoring the grants as they desired.

This administrative burden is reflected in the Department’s Report to Employees on Agency
Results, July 2005, which reported, “. . . despite the tremendous growth in the size of ED
programs over the past 25 years, the number of full-time equivalent ED staff reached a 25-year
low . . . in fiscal year 2004. Managing significantly greater resources with fewer people . . . .”

Eliminating or combining programs could help reduce the burden on program staff and reduce
the amount of different, yet overlapping program guidance, award competitions, and other
materials. Realignment of programs may also allow the Department to leverage or better use
oversight resources. This may lead to increased efficiency and better use of the Department’s
resources in direct support of its mission.

More Coordination Needed Within OPE and With OESE and OVAE

There was little effort to coordinate between the programs, either within OPE itself, or with OPE
and OESE or OPE and OVAE. In accordance with one purpose of the Department’s mission: “to
improve the coordination of federal education programs,” coordinating OPE programs, along
with programs administered in other Principal Offices, could help ensure efficient and effective
use of taxpayer resources. All Principal Offices should coordinate programs offering similar
services to meet the needs of all individuals seeking project services, and ensure that duplication
does not exist by serving the same target group with like services. In some cases, effective
coordination might require that programs be administered by another office.

The Talent Search and Gear Up grants in OPE are two of the more closely related programs
within the Preparation of Students for Postsecondary Education grouping; however, they are not
even administered by the same program office within OPE. Many Talent Search grantees also
are administrating GEAR UP grants. However, there is no assurance that the programs are not
over-serving one area while overlooking another altogether, and efforts to coordinate the award

2
    See Attachment B for a listing.
ED-OIG/X07F0002 	                                                                     Page 8 of 21


of the grants would be more difficult when they are administered out of two different program
offices within OPE.

In the Teacher Quality and Professional Development group of programs, the largest grant
programs by far are administered by OESE. In contrast, the largest OPE program, the Teacher
Quality Enhancement Grant program, with a total of $88,887,451 appropriated for FY 2004, was
listed for termination in the Department’s 2006 Budget request due to its lack of performance
information and program management deficiencies.

The Department also recommended eliminating the GEAR UP, Upward Bound, and Talent
Search Programs in its FY 2006 budget request. The Department’s reasons for eliminating
existing programs include indications that programs

    •	   have achieved their original purpose,
    •	   duplicate other programs,
    •	   may be carried out with flexible state formula grant funds, or
    •	   involve activities that are better or more appropriately supported through state, local, or
         private resources.

In administering programs, the flexibility and control to allocate funds to activities determined to
best meet the needs of at-risk students should be a primary goal. Since OPE does not award
discretionary grants by geographic location, the Department cannot be certain that all geographic
areas are being served, or what portion of eligible populations have been over- or under-served
by discretionary grant programs. Grant awards should be managed so that services are matched
to the needs of various populations both within that program and among other programs with
similar objectives.

The Department Should Continue to Work With Congress to Consolidate or
Eliminate Overlapping Programs

As noted, the Department has made recommendations to eliminate some duplicative programs by
recommending that the funding be discontinued. We also acknowledge that Congress sets the
number and nature of the programs through legislation. Although the Department must
administer all the programs enacted by Congress, we believe that OPE should increase its efforts
to identify and inform Congress of inefficiencies and overlaps between programs and to identify
those programs which, through consolidation or elimination could improve the efficiency and
effectiveness of the Department in achieving its goals of academic excellence and expanded
access to higher education.

Suggestions

We suggest that the Department consider:

   1.1 Continuing its work with Congress to consolidate or eliminate programs that have the
       same or similar program objectives.
ED-OIG/X07F0002 	                                                                  Page 9 of 21


   1.2 Realigning similar grant programs to be administered by the same office within the
       Department.

   1.3 Improving coordination between OPE and other Department programs with the same or
       similar program objectives.
          a. 	 Such coordination may require the reassignment of administrative responsibilities
               between program offices within OPE or the transfer of programs between OPE,
               OESE, or OVAE.
          b. 	 The Department should explore creative ways to ensure that similar services
               offered to like populations be coordinated between the existing programs so that
               individuals and geographic areas are neither over- or under-served.
          c. 	 Other areas of coordination could include identifying overlapping areas wherever
               possible and ensuring consistent application of definitions, guidance, and other
               requirements to reduce the burden of Departmental policy on grant administrators
               and grant recipients.
          d. 	 The Department should encourage consolidation of reporting and similar
               requirements for recipients with multiple grants to reduce the administrative costs
               and enable more services to be provided to the intended beneficiaries.




                 OBJECTIVES, SCOPE, AND METHODOLOGY 



The objectives of our review were to determine if OPE grant programs 1) have duplicative
program objectives aimed at serving like target populations and areas; and 2) if grant programs
administered by other Department offices contain program objectives that overlap with OPE
grant programs.

To achieve the review objectives, we

   • 	 Conducted interviews with program directors and staff of selected programs from OPE,
       OESE, and OVAE.
   • 	 Obtained and reviewed program data.
   • 	 Identified and selected all discretionary and formula OPE grant programs that offer
       similar services to a general population or area. (Programs that had unique program
       purposes were not selected.)
   • 	 Selected OESE programs that had a similar program objective to OPE programs.
   • 	 Selected OVAE programs that had a similar program objective to OPE programs.
   • 	 Reviewed legislation and regulations governing each of the selected OPE programs.
   • 	 Reviewed prior issued OIG audit reports pertaining to selected programs from each of the
       three Principal Offices.
   • 	 Reviewed grant application instructions, the 2004 Program Assessment Rating Tool, the
       Department’s FY 2005 Performance Plan, and the Department’s Strategic Plan 2002-
       2007.
ED-OIG/X07F0002                                                                   Page 10 of 21


We assigned the programs selected to eight different categories of related program purposes:
Teacher Enhancement, Postsecondary Student Services, Postsecondary Student Aid,
Postsecondary Institutions, Elementary and Secondary, International, Curriculum, and Training
Programs (See Attachment A). Because some individual programs have multiple goals and
objectives, these programs may be included in more than one category.

We compared all programs selected from OESE and OVAE for similarities between services,
target groups, and target areas and compared those programs to OPE programs. We did not
compare programs selected within OESE or OVAE, nor did we compare selected programs
between OESE and OVAE. Programs selected from OESE and OVAE were only compared to
OPE programs that were selected for our review.

We relied, in part, on computer-processed data to determine the number of grant programs in
each of the three Principal Offices: OPE, OESE, and OVAE. Based on our assessments, we
concluded that the data used was sufficiently reliable for the purpose of our review. We did not
assess the adequacy of OPE, OESE, or OVAE controls over the programs selected for review.

Fieldwork was performed at the selected OPE, OESE, and OVAE program offices during the
periods of December 8-10, 2004, and January 10-14, 2005. We conducted an exit conference
with officials from OPE on October 6, 2005. Our review focused on the FY 2003-2004
individual program objectives. Our review was conducted in accordance with generally accepted
government auditing standards appropriate to the scope of the review described above.




                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
suggestions in this report, represent the opinions of the Office of Inspector General.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation given us during this review. If you have any questions, please
contact Richard J. Dowd, Regional Inspector General for Audit, at (312) 886-6503.



                                             Sincerely,

                                               /s/
                                             Helen Lew
                                             Assistant Inspector General for Audit Services

Attachments
ED-OIG/X07F0002                                                                                Page 11 of 21


                                                                                               Attachment A

 Grant Programs Within OPE With Overlapping Purposes and Services, Including OESE
             and OVAE Programs Which Overlap OPE Grant Programs

                                                        Student Support for Postsecondary and Adult
   Teacher Quality and Professional Development                          Education
                  OPE PROGRAMS                                      OPE PROGRAMS
Demonstration Projects to Ensure Students with
Disabilities Receive a Quality Higher Education
$6,912,971                                           *Student Support Services $263,030,892
Preparing Tomorrow's Teachers to Use Technology
(no funding in 2004)                                 McNair Postbaccalaureate Achievement $42,092,721
Teacher Quality Enhancement Grants (States,          *Historically Black Colleges and Universities
Partnerships, Recruitment) $88,887,451               $222,119,992
*Fulbright-Hays Faculty Research Abroad Fellowship
Program $1,385,649                                   *Historically Black Graduate Institutions $53,099,851
*Fulbright-Hays Seminars Abroad-Bilateral Projects
$2,200,000                                           Educational Opportunity Centers $48,971,567
*Alaska Native and Native Hawaiian Serving           *American Tribally Controlled Colleges and
Institutions $10,935,100                             Universities $23,286,792
                                                     *Alaska Native and Native Hawaiian Serving
*Strengthening Institutions $80,986,345              Institutions $10,935,100
                                                     *Developing Hispanic-Serving Institutions
               OESE PROGRAMS                         $93,993,149
Improving Teacher Quality State Grants
$2,930,126,132                                       *Strengthening Institutions $80,986,345
*Enhancing Education through Technology Program
$691,840,913                                                          OESE PROGRAMS
                                                     *Alaska Native Education Program $33,302,000
                                                     *Native Hawaiian Education Program $32,302,000
                                                                      OVAE PROGRAMS
                                                     *Tribally Controlled Postsecondary Vocational and
                                                     Technical Institutions Program $7,185,355
                                                     Vocational Education - Native Hawaiians $2,987,519
                                                     Vocational Education - Grants to Native Americans
                                                     and Alaska Natives $14,937,595
ED-OIG/X07F0002                                                                              Page 12 of 21



                                                                                  Preparation of Students for
       Postsecondary Student Aid              Postsecondary Institutions           Postsecondary Education
           OPE PROGRAMS                          OPE PROGRAMS                          OPE PROGRAMS
*Gaining Early Awareness and                                                 *Gaining Early Awareness and
Readiness for Undergraduate Programs     *Historically Black Colleges and    Readiness for Undergraduate Programs
$298,230,000                             Universities $222,119,992           $298,230,000
B.J. Stupak Olympic Scholarships         *Strengthening Institutions
$988,135                                 $80,986,345                         Upward Bound $274,097,258
Robert C. Byrd Honors Scholarship        *Developing Hispanic-Serving        Upward Bound Math & Science
$40,758,100                              Institutions $93,993,149            $32,812,036
*Student Support Services $263,030,892                                       *Talent Search $144,230,198
Thurgood Marshall Legal Educational      *Historically Black Graduate
Opportunity (not funded in 2004)         Institutions $53,099,851                     OESE PROGRAMS
                                                                             Prevention and Intervention Programs for
                                         *American Tribally Controlled       Children and Youths Who Are
Graduate Assistance in Areas of National Colleges and Universities           Neglected, Delinquent, or At Risk
Need $30,616,292                         $23,286,792                         $48,395,000
Jacob K. Javits Fellowship Program       *Alaska Native and Native Hawaiian Education of Migratory Children
$9,876,383                               Serving Institutions $10,935,100    $393,577,113
                                         *Fund for the Improvement of
Foreign Language and Area Studies        Postsecondary Education-            Migrant Education - High School
Fellowship $26,960,000                   Comprehensive Program $11,100,000 Equivalency Program $7,884,808
Child Care Access Means Parents in                                           *Alaska Native Education Program
School Program $16,098,455                       OVAE PROGRAMS               $33,302,000
                                          *Tribally Controlled Postsecondary
*Fulbright-Hays-Doctoral Dissertation Vocational and Technical Institutions *Native Hawaiian Education Program
Research Abroad $4,440,379               Program $7,185,355                  $32,302,000
*Alaska Native and Native Hawaiian
Serving Institutions $10,935,100                                             OVAE PROGRAMS
                                                                             *Tech Prep Demonstration Program
          OESE PROGRAMS                                                      $3,628,563
 Migrant Education-College Assistance
Migrant Program $15,667,075
          OVAE PROGRAMS
 *Tribally Controlled Postsecondary
Vocational and Technical Institutions
Program $7,185,355
ED-OIG/X07F0002                                                                                 Page 13 of 21



          International                                Curriculum                           Training
        7OPE PROGRAMS                                OPE PROGRAMS                      OPE PROGRAMS
                                          Eisenhower Regional Mathematics
American Overseas Research Centers and Science Education Consortia              TRIO Dissemination Partnership
$1,000,000                                $14,814,078                           $4,374,000
*Fulbright-Hays Faculty Research          *American Tribally Controlled
Abroad Fellowship Program                 Colleges and Universities             Training Program for Federal
$1,385,649                                $23,286,792                           TRIO Programs $6,000,000
*Fulbright-Hays Group Projects            *Business and International Education
Abroad $4,312,450                         Program $4,490,000
*Fulbright-Hays Seminars Abroad           Centers for International Business
Bilateral Projects $2,200,000             Education $10,700,000
*Fulbright-Hays Doctoral Dissertation *Fulbright-Hays Group Projects
Research Abroad $4,440,379                Abroad $4,312,450
*Business and International Education International Research and Studies
Program $4,490,000                        $5,620,900
Institute for International Public Policy *Language Resource Centers
$1,639,330                                $4,850,000
                                          *Technological Innovation &
                                          Cooperation for Foreign Information
                                          Access $1,700,000
                                          Undergraduate International Studies
                                          and Foreign Language Program
                                          $4,490,000
                                          *Alaska Native and Native Hawaiian
                                          Serving Institutions $10,935,100
                                          *Developing Hispanic-Serving
                                          Institutions $93,993,149
                                                    OESE PROGRAMS
                                          *Alaska Native Education Program
                                          $33,302,000
                                          *Native Hawaiian Education Program
                                          $32,302,000
                                          *Mathematics and Science
                                          Partnerships $149,115,000
                                          *Enhancing Education through
                                          Technology Program $691,840,913
                                                   OVAE PROGRAMS
                                          *Pacific Vocational Education
                                          Improvement Program $1,510,015
                                          *College and Career Transitions
                                          Initiative
                                          *Vocational Education-Basic Grants
                                          to States $1,168,239,440
2004 Funding shown
*Program included in more than one category
ED-OIG/X07F0002                                                                                                  Page 14 of 21


                                                                                                     Attachment B
                                   Office of Inspector General Issued Reports
  Audit                                                                                                         Recommended
 Control                Title                Date                    Issues Identified                            Recovery
 Number                                     Issued                                                                 Amount

                                                   Department Audits
 A07E0009   Talent Search Program at the    02/16/05   The report stated that the TRIO Office did not                        $0
            U.S. Department of Education               maintain sufficient internal control over Talent
                                                       Search participant numbers because it did not (i)
                                                       properly maintain the records and procedures
                                                       needed to readily determine the correct number of
                                                       participants planned or (ii) provide the monitoring
                                                       and policy guidance needed to insure accurate
                                                       reporting of participants served. It was found that
                                                       the Department might be using overstated Talent
                                                       Search participant numbers for assessing grant
                                                       performances and reporting to Congress and the
                                                       general public.
 A07A0033   Audit of Gaining Early          06/07/02   The GEAR UP audit report found that the program                       $0
            Awareness and Readiness for                did not establish and follow management controls
            Undergraduate Programs                     necessary to assure that it administered the program
                                                       in accordance with legislative, regulatory and
                                                       internal administrative requirements. Specifically,
                                                       the audit found that the Department did not assure
                                                       that: GEAR UP officials informed GPOS when
                                                       changes were made with GEAR UP program staff
                                                       and officials holding warranty authority; GEAR UP
                                                       program staff followed the Department’s Technical
                                                       Review Plan in reviewing budget data submitted by
                                                       applicants prior to awarding grant funds; GEAR UP
                                                       officials established and implemented a monitoring
                                                       plan as prescribed in the Technical Review Plan;
                                                       GEAR UP program staff completed the necessary
                                                       steps to determine eligibility prior to awarding grant
                                                       funds; and GEAR UP program staff adequately
                                                       reviewed the completed technical review forms and
                                                       panel summary sheets for completion and
                                                       mathematical accuracy as required by the Technical
                                                       Review Plan.
 A0790034   Department Controls Over        01/04/02   The audit disclosed that the Department needs to                      $0
            TRIO Grantee Monitoring                    improve its oversight of TRIO grantees.
                                                       Specifically, the Department needs to ensure that 1)
                                                       TRIO grantees are effectively monitored for
                                                       compliance with federal requirements, 2) internal
                                                       controls are strengthened to help prevent program
                                                       abuse, resolve compliance problems, and enforce
                                                       corrective actions, and 3) reporting instructions are
                                                       clarified to ensure the integrity of national
                                                       performance information.
                                                                                                                 Grantee Audits
 A05D0041   University of Illinois at       12/20/04   The audit disclosed that UIC misrepresented the                  $223,057
            Chicago’s Upward Bound                     achievement of the Upward Bound project’s
            Project                                    objectives because it did not have documentation
                                                       supporting the achievements as reported to the
                                                       Department. In addition, UIC (1) did not serve only
                                                       ineligible participants, (2) did not appropriately
                                                       account for grant funds, (3) could not support all of
                                                       its expenditures, and (4) charged unallowable costs
                                                       to the grant.
ED-OIG/X07F0002                                                                                                 Page 15 of 21

 A05D0017   The University of Illinois at    01/14/04   The audit disclosed that UIC did not comply with             $1,018,212
            Chicago’s Gaining Early                     the terms of its agreement with the Department.
            Awareness and Readiness for                 UIC failed to show that its GEAR UP project
            Undergraduate Programs Project              provided services to 1,130 participants from its
                                                        cohort during each of the first three years of the
                                                        grant (September 1, 1999, through August 31,
                                                        2002). In addition, UIC and its partnership failed to
                                                        provide $990,847 in required non-federal matching
                                                        contributions for the first three years of the grant.
 A06D0015   New Orleans Educational Talent   10/21/04   New Orleans Educational Talent Search Program,               $1,937,980
            Search Program, Inc                         Inc., materially failed to comply with the Higher
                                                        Education Act of 1965 (HEA), as amended,
                                                        regulations governing the Talent Search Program,
                                                        and its approved grant application. During the
                                                        period September 1, 1998, through December 31,
                                                        2002, NOETSP did not (1) comply with the grant
                                                        performance requirements, and (2) properly account
                                                        for $1,937,980 in Talent Search Program funds.
                                                        Specifically, NOETSP did not (1) document needs
                                                        assessments for its participants, including whether
                                                        the students were low-income or prospective first-
                                                        generation college students, and (2) maintain a
                                                        record of services provided and educational
                                                        progress made by each participant as a result of the
                                                        services.
 A04C0019   Stillman College’s               10/15/03   The audit covered the following TRIO programs;                $313,545
            Administration of the Federal               Student Support Services (SSS), Upward Bound
            TRIO Programs Needs                         (UB), Upward Bound Young Scholars (UBYS), and
            Improvement                                 Upward Bound Math & Science (UBMS). The
                                                        audit found that the college: 1) had drawn down
                                                        TRIO funds in excess of its program expenditures
                                                        totaling $313,545 for three TRIO programs (SSS,
                                                        UBYS, and UBMS); 2) lacked proper accounting
                                                        controls over recording and reporting TRIO
                                                        program expenditures and reporting expenditures in
                                                        the financial statements; 3) did not maintain an
                                                        adequate inventory of computer equipment
                                                        purchased with TRIO funds, and 4) SSS program
                                                        services were provided to non-SSS participants.
 A07C0031   Audit of the Talent Search       03/28/03   Luther College did not always administer its                  $219,567
            Program at Luther College                   Federal Talent Search grant in accordance with
                                                        applicable law and regulations. For the grant period
                                                        September 1, 2001, through August 31, 2002, it was
                                                        estimated that Luther College served only 363 of
                                                        the 625 participants it was funded to serve, which is
                                                        significantly less than the 600 participants required
                                                        of Talent Search grantees.
A07D0001    The Talent Search Program at     01/15/04   The University did not always administer its Talent                 $0
            the University of New                       Search grant in accordance with applicable
            Hampshire                                   regulations or its Departmental agreement. The
                                                        University could not provide documentation for all
                                                        services it claims to have provided to participants.
                                                        For the grant period September 1, 2001, through
                                                        August 31, 2002, we estimated that the University
                                                        might have served fewer than the 1,150 participants
                                                        it was funded to serve.
A07D0009    The Talent Search Program at     11/25/03   Wahupa did not always administer its Talent Search            $122,900
            Wahupa Educational Services                 grant in accordance with applicable law and
                                                        regulations. For the grant period September 1,
                                                        2001, through August 31, 2002, it was estimated
                                                        that Wahupa served 1,702
                                                        allowable participants of the 2,300 participants it
                                                        was funded to serve. Wahupa did not serve the
                                                        participant number it reported on the APR, and less
                                                        than two-thirds of its Talent Search participants
                                                        were low-income individuals who were potential
                                                        first-generation college students.
ED-OIG/X07F0002                                                                                                    Page 16 of 21

 A07D0015   The Talent Search Program at        01/29/04   CIS did not fully comply with the HEA and specific            $298,349
            Communities in Schools of San                  regulations or follow its own grant proposal in
            Antonio                                        meeting its target population. The grant project did
                                                           not serve the minimum required (600) participant
                                                           population for an eligible Talent Search program.
                                                           For the September 1, 2001, through August 31,
                                                           2002, budget period, it was estimated that out of the
                                                           601 participants claimed as served, only 481 were
                                                           allowable participants.
 A07D0024   Talent Search Program at            06/18/04   LNESC did not always administer its grant in                       $0
            LULAC National Educational                     accordance with the law and regulation governing
            Service Centers, Inc.                          the documentation of participant eligibility. As a
                                                           result, LNESC overstated Talent Search participants
                                                           served in its APR submitted to the Department for
                                                           the September 1, 2001, through August 31, 2002,
                                                           budget period.
 A07D0002   The Talent Search Program at        07/11/03   Case Western Reserve University did not always                $212,428
            Case Western Reserve                           administer its Federal Talent Search grant in
            University                                     accordance with applicable law and regulations.
                                                           For the grant period September 1, 2001, through
                                                           August 31, 2002, we estimate that CWRU served
                                                           only 399 of the 600 participants, the minimum
                                                           number of participants required of TA grantees, it
                                                           was funded to serve.
 X06D0021   State Education Agencies            09/30/03   It was found that none of the four States (1)                      $0
            (Texas, Florida, Kansas, and                   established and implemented appropriate
            California) and their sub-                     procedures to identify and target services to
            grantees, and to identify how the              migratory children who are failing, or most at risk
            Office of Migrant Education can                of failing, to meet State standards, and whose
            improve the Migrant Education                  education was interrupted during the regular school
            Program                                        year, and (2) established procedures to report to the
                                                           Department an accurate number of “Priority for
                                                           Services” migratory children served. As a result,
                                                           the Department could not determine whether the
                                                           $212.2 million in Migrant Education Program funds
                                                           received by these four States in FY 2001 were used
                                                           to provide services to Priority for Services
                                                           migratory children before services were provided to
                                                           other migratory children.
 A05D0037   Future Teachers of Chicago,         03/23/04   The audit disclosed that Future Teachers did not              $365,296
            Illinois Teacher Recruitment                   expend grant funds in accordance with Title II of
            Grant                                          the Higher Education Act of 1965, as amended,
                                                           applicable regulations, and terms of the Grant
                                                           award. Future Teachers lacked the ability to
                                                           adequately administer the grant because it was not
                                                           familiar with program requirements and, as a result,
                                                           did not establish or implement an adequate financial
                                                           management system and adequate management
                                                           controls. During the period October 1, 2002,
                                                           through June 30, 2003, Future Teachers charged the
                                                           Grant for costs it did not adequately support and for
                                                           unallowable costs, and maintained excess cash.
 A06E0015   The Dallas Independent School       09/16/04   The audit disclosed that although DISD properly               $205,000
            District’s (DISD) administration               accounted for and used grant funds in accordance
            of the Teaching American                       with applicable federal laws, regulations, grant
            History Grant                                  terms, and cost principles during the first two years
                                                           of the grant, DISD did not obtain the required prior
                                                           approval for a change in key personnel for the
                                                           approved grant. Consequently, DISD disbursed
                                                           $205,000 in grant funds to the new unapproved and,
                                                           therefore, ineligible grant partner.
 A05E0002   The University of Illinois at       12/15/04   The audit disclosed that UIC (1) failed to provide            $260,050
            Chicago’s (UIC) Student                        evidence of fulfillment of assurances, (2) did not
            Support Services program                       accurately report the accomplishments of its SSS
                                                           program to the Department, (3) charged
                                                           unallowable costs to the grant, and (4) could not
                                                           support all of its personnel expenditures.
ED-OIG/X07F0002                                                                                                    Page 17 of 21

 A04D0013   Stillman College’s                 12/30/03   The audit found that the College drew down more                 $76,151
            Administration of the Title III,              Title III funds than it expended for program
            Part B, Strengthening                         activities and did not inform the Department of
            Historically Black Colleges and               changes in key personnel.
            Universities Program

 A04C0014   Kentucky State University’s        03/12/03   KSU generally met the Title III, Part B, cash                   $28,083
            Administration of the Title III,              management requirements, but it did not always
            Part B, Strengthening                         meet the record keeping requirements for grant
            Historically Black Colleges and               expenditures. KSU accounting controls did not
            Universities Program                          always ensure that grant expenditures were fully
                                                          documented and supported.
 A05F0011   College of Lake County             04/04/05   The objective of the audit was to determine if the                   $0
            Community College District No.                College expended Federal Strengthening
            532 (College) Strengthening                   Institutions grant funds in accordance with its grant
            Institutions grant funds                      agreement, federal law and regulations, and
                                                          applicable cost principles for the two years ended
                                                          September 30, 2004. There were no findings that
                                                          required resolution.
 A05C0028   Governors State University’s       08/18/03   The audit disclosed that GSU 1) operated a financial             $3,213
            (GSU) administration of its                   management system that was inadequate to
            Student Support Services and                  completely and accurately account for Student
            Upward Bound programs                         Support Services and Upward Bound funds and
                                                          inadequate to compare outlays with approved
                                                          budgeted amounts for each award year, 2) did not
                                                          accurately report the accomplishments of its Student
                                                          Support Services and Upward Bound programs, 3)
                                                          did not maintain adequate support for all Student
                                                          Support Services and Upward Bound expenses, and
                                                          4) incorrectly calculated indirect costs.
 A05E0018   University of Illinois at          12/17/04   The audit disclosed that UIC misrepresented its                $274,493
            Chicago’s (UIC) Upward Bound                  UBMS project’s accomplishments to the
            Math and Science (UBMS)                       Department. UIC did not maintain documentation
            project                                       supporting that it achieved the project’s objectives
                                                          as reported to the Department, served ineligible
                                                          participants and did not provide all required
                                                          services, did not appropriately account for grant
                                                          funds, could not support all its expenditures, and
                                                          charged unallowable costs to the grant.
A06D0027    Magdalena Municipal Schools’       03/30/04   Magdalena did not properly account for and use                  $21,763
            (Magdalena) administration of                 GEAR UP partnership grant funds in accordance
            the Gaining Early Awareness                   with all applicable regulations, grant terms, and cost
            and Readiness for                             principles. Specifically, Magdalena awarded
            Undergraduate Programs                        GEAR UP scholarships to ineligible students,
            (GEAR UP) grant                               charged the grant for fund raising costs, used grant
                                                          funds for expenditures that were not adequately
                                                          supported, and did not establish a separate trust
                                                          fund to safeguard GEAR UP scholarship funds.
A09D0032    California State University,       06/17/04   The Foundation did not meet the required matching              $380,400
            Fresno Foundation’s                           contributions for any of the four years covered by
            Administration of GEAR UP                     the review because the Foundation did not have the
            Partnership Grant                             required documentation for the claimed
                                                          contributions. Further, the Foundation did not use
                                                          and properly account for the GEAR UP grant funds
                                                          in accordance with federal regulations.
 A07B0011   Audit of Valencia Community        05/08/03   The audit found that VCC officials did not                    $1,822,864
            College’s Gaining Early                       administer its GEAR UP projects in accordance
            Awareness and Readiness for                   with legislative, regulatory, and administrative
            Undergraduate Programs                        requirements for non-federal match. Further, VCC
            Matching Requirement                          did not maintain adequate documentation to support
                                                          the required match, claimed facilities and
                                                          equipment costs were improperly calculated, and
                                                          matching claims included unallowable, unallocable,
                                                          and unreasonable room usages.
ED-OIG/X07F0002                                                                                               Page 18 of 21

 A09B0026   Audit of Delaware State          07/11/02   The University did not 1) promptly account for                   $0
            University’s Administration of              HBCU Program funds drawn down for the
            the Title III Strengthening                 Endowment Challenge Program activity, 2)
            HBCU Program                                promptly provide matching funds for the HBCU
                                                        Program funds, and 3) deposit and invest the
                                                        endowment fund corpus in a timely manner. In
                                                        addition, the University reported inaccurate
                                                        information on the status of the Endowment
                                                        Challenge Program activity to the Department in its
                                                        continuation grant applications and annual
                                                        performance reports. Further, the University did
                                                        not adequately account for the endowment funds
                                                        established with Title III HBCU Program and
                                                        Endowment Challenge Grant Program funds.
                                                        Lastly, the University charged unallowable and
                                                        unsupported costs to the program.
 A04D0001   North Alabama Center for         11/24/03   NACEE violated the conflict of interest regulations         $877,384
            Educational Excellence’s                    regarding payment for rental space at its central
            Administration of the TRIO                  office, used TRIO funds to pay performance awards
            Programs Needs Improvement                  to employees without an established institutional
                                                        award plan, lacked documentation for one
                                                        expenditure, failed to maintain activity reports to
                                                        support the Executive Director’s TRIO salary
                                                        distribution, and did not adequately support TRIO
                                                        program achievements reported in the 2000-2001
                                                        and 2001-2002 performance reports.
ED-OIG/X07F0002                                                                   Page 19 of 21


                                                                                  Attachment C
Auditee Response

                                       February 10, 2006



Ms. Helen Lew
Assistant Inspector General for Audit Services
Office of the Inspector General
U.S. Department of Education
400 Maryland Avenue, SW
Washington, DC 20202

Dear Ms. Lew:

Thank you for the opportunity to comment on the Office of Inspector General’s (OIG’s) Draft
Management Information Report, “Overlapping Services in the Department of Education’s
Office of Postsecondary Education Programs,” (ED-OIG/X07F0002) dated December 29, 2005.
The objectives of the review were to determine: 1) if Office of Postsecondary Education (OPE)
grant programs have duplicative program objectives aimed at serving like target populations and
areas; and 2) if grant programs administered by other U.S. Department of Education
(Department) offices contain program objectives that overlap with those of OPE grant programs.

The report summarizes the results of the audit of 42 discretionary and formula grant programs
administered by OPE and funded in FY 2003-2004, which OIG believes may overlap in some
way with 15 Office of Vocational and Adult Education (OVAE) and 13 Office of Elementary
and Secondary Education (OESE) grant programs. The Department concurs with the report’s
finding that some of the 42 programs reviewed by OIG overlap with or are duplicative of other
Department programs and should be reformed or eliminated. Indeed, the President’s budget has
proposed to replace a number of the programs that are directed at preparing students for
postsecondary education with a more comprehensive approach to improving high school
education and has included other recommendations for eliminating other duplicative programs.
As noted below, the Department has also made some organizational changes that should
facilitate management of similar programs. Further analysis and discussion are needed to
determine whether there are other options that should be considered for enhancing program
administration through reorganization or better coordination.

In the following paragraphs, the Department would like to respond directly to the specific
recommendations in this report:

1.1 Consider working with Congress to consolidate or eliminate programs that have the
    same or similar program objectives.

   The Department concurs with this suggestion and, for a number of years, the Administration
   had proposed elimination of duplicative or otherwise unneeded programs. In the fiscal year
   2006 budget request, we recommended elimination of 48 Department programs, and
   Congress responded by eliminating funding for five of them. In the newly announced fiscal
ED-OIG/X07F0002                                                                   Page 20 of 21


   year 2007 budget, we recommended the elimination of 42 programs. Proposed terminations
   included B.J. Stupak Olympic Scholarships, Byrd Honors Scholarships, Teacher Quality
   Enhancement, Demonstration Projects to Ensure Students with Disabilities Receive a Quality
   Higher Education, and Thurgood Marshall Legal Educational Opportunity programs, which
   are administered by OPE, and the Enhancing Education Through Technology Program,
   which is administered by OESE, because they are duplicative of other programs. Other
   programs were also proposed for elimination because they would be replaced by the more
   comprehensive High School Reform initiative. These programs included Gaining Early
   Awareness and Readiness for Undergraduate Programs (GEAR UP), the TRIO Talent Search
   Program, TRIO Upward Bound, and TRIO Upward Bound Math/Science, which are
   administered by OPE, and the Vocational Education State Grants, Vocational Education
   Grants to Native Americans and Alaskan Natives, and Vocational Education -- Native
   Hawaiians programs, which are administered by OVAE. In addition, the Administration
   previously proposed the elimination of the Preparing for Tomorrow’s Teachers to Use
   Technology program, and Congress terminated funding.

   The Department continues to conduct reviews on various programs using the Office of
   Management and Budget's Program Assessment Rating Tool. This process continues to
   serve as a mechanism for the Department to examine the effectiveness of its programs and
   consider opportunities for the consolidation and elimination of programs, taking into account
   Administration priorities and data regarding program effectiveness.

1.2 Consider realigning similar grant programs to be administered by the same office
    within the Department.

   The Department concurs, in general, with this suggestion and continues to assess program
   goals and objectives, realigning similar programs when appropriate. However, the
   Department does not believe that realigning program staff at the present time would
   necessarily increase efficiency of its operations. In 2005, the Department reorganized to
   streamline the agency’s functions, clarify roles and responsibilities, and integrate policy
   development, program implementation, and communication. This should assist the
   Department as it reviews its grant programs for additional opportunities to increase efficiency
   and effectiveness.

   To promote coordination among OPE programs, all but one of the higher education grant
   programs are administered under the Deputy Assistant Secretary for Higher Education
   Programs (HEP). The HEP office coordinates program policy, planning, and
   implementation. Program managers and staff interact on a daily basis. Additionally, OPE
   has increased the use of electronic resources, such as the Grants.gov Web site, resulting in
   improved services and reduced burden on applicants.

   In addition, the Administration has requested funding for the Tribally-Controlled
   Postsecondary Vocational and Technical Institutions program, which is currently
   administered by OVAE, under OPE’s Higher Education account and has recommended that
   Congress reauthorize the program as part of the Higher Education Act.

1.3 Consider improving coordination between OPE and other Department programs with
    the same or similar program objectives.
ED-OIG/X07F0002 	                                                                   Page 21 of 21


    The Department recognizes the benefits of coordination and routinely explores ways to
    strengthen coordination among various OPE programs with similar objectives that are
    administered by other program offices. For example, there has been extensive coordination
    between OPE and OESE on the issue of highly qualified teachers and the Secretary's annual
    reports under Title II of the Higher Education Act. One outcome of this cooperation has
    been the adoption of common performance measures for programs with comparable
    objectives.

    OPE administers 47 discretionary and formula grant programs that have a broad range of
    objectives, target populations, and grant recipients. OPE will continue its current efforts to
    look for opportunities to streamline programs, maximize electronic capabilities to reduce
    burden, and standardize program administration.

The Department will provide technical corrections and clarifications separately for you to
consider as you complete the final version of your report. We hope that this response will further
your efforts to support the Department goals of improving the management of Federal resources
and strengthening overall accountability.

                                             Sincerely,




        Raymond Simon                                         David Dunn
        Deputy Secretary                                      Acting Under Secretary

cc: 	   Hudson La Force, Senior Counselor to the Secretary
        Sally Stroup, Assistant Secretary, Office of Postsecondary Education
        Henry Johnson, Assistant Secretary, Office of Elementary and Secondary
         Education
        Beto Gonzalez, Acting Assistant Secretary, Office of Vocational and Adult
         Education
